HHS/OIG, Audit -"State of North Carolina's Efforts to Account for and Monitor Sub-Recipient's Use of Bioterrorism Hospital Preparedness Program Funds, North Carolina Division of Public Health,"(A-04-03-01010)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"State of North Carolina's Efforts to Account for and Monitor Sub-Recipient's
Use of Bioterrorism Hospital Preparedness Program Funds, North Carolina Division
of Public Health," (A-04-03-01010)
October 17, 2003
Complete
Text of Report is available in PDF format (349 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out
that the North Carolina Division of Public Health (North Carolina) generally
accounted for program funds ($3.37 million received for the 2-year period
ending March 31, 2004) in accordance with the terms and conditions of the cooperative
agreement with the Health Resources and Services Administration (HRSA) and
applicable departmental regulations and guidelines.  However, North Carolina
did not track expenditures by phase, within phase, or by priority planning
area in its accounting system.  Although segregation was not required,
budget restrictions were specified in the cooperative agreement.  North
Carolina officials acknowledged the importance of tracking expenditures in
order to comply with the budget restrictions.  North Carolinas monitoring
procedures facilitated the tracking and monitoring of subrecipient activities
and expenditures.  Further, North Carolina officials stated that HRSA
funding had not been used to supplant programs previously provided by other
organizational sources.  We recommended North Carolina make changes to
its accounting system and begin tracking expenditures by priority area, by
critical benchmark, and by funds allocated to hospitals and other health care
entities.  North Carolina generally concurred with our findings and recommendations
and stated it would take the necessary steps to fully comply with the HRSA
grant guidelines.